 ..            ...




            THE URBAN INDIAN HEALTH PROGRAM

                     A Bridge to Mainstream Health Care Delivery




        C;UlVIClS.



        .A
       """Ja


OFFICE OF INSPECTOR GENERAL
      OFFICE OF ANALYSIS AND INSPECTIONS


                                                                   JULY 1988

                       OFFICE OF INSPECTOR GENERAL
The    ssion of th Off e of Inspector c;eneral (c;nG) is to promote the efficiency,
effectIvenesS and Ilteg ty of programs II the Um,ted state sDeparment of Health
and Human Servces (HHS). It does this by developing methods to detect and
prevent fraud , waste and abuse. Created by statute in 1976 , the Inspector General
keeps both the Secretar and the Congress fully and currently informed about
programs or management problems and recommends corrective action. The OIG
performs its mission by conducting audits , investigations and inspections with
approximately 1    200 staff strategically located around the country.



                 OFFICE OF ANALYSIS AND INSPECTIONS
This report is produced by the Office of Analysis and Inspections (OAl), one of the
three major offices within the OIG. The other two are the Office of Audit and the
Office of Investigations. The OAl conducts inspections which are , typically,
short-term studies designed to determine program effectiveness , efficiency and
vulnerability to fraud or abuse.



                                    THIS REPORT
Entitled ' 'Te Urban Indian Health Program--A Bridge to Maintream Health Care
Delivery, " this inspection recommends changes in the title V Urban Indian Health
Program and suggests improvements in program plang and evaluation as well as
in Federal contract monitoring and management. The report was prepared under
the direction of Kaye D. Kidwell , the RegIOnal Inspector General , Office of Analysis
and Inspections , Region IX.
Participating in this project were the following people:
      Thomas Purvs ,  National Project Director
      Alan Levine , Project Liaison, Headquarters
      Caroline Tsen, Program Analyst
      Ruth E. Carlson , Program Assistant
:._
,
\
,,
 .,-;
    ,..
     .
     ,,




 t -





                  THE URBAN INDIAN HEALTH PROGRAM

                      A Bridge to Mainstream Health Care Delivery




r ­




i :




i I




1 T




f I


                                   Richard   P.   Kusserow
                                  INSPECTOR GENERAL
i ,




          OAI- 09-87 - 00027                                    JULY 1988




L c

,..­ .
,'!,!
j,  .

     ,.




                                   EXECUTIVE SUMMARY

            PURPOSE
            The objectives of this inspection were to determine , in select communities , (1) the
            extent to which commumt, health servces , other than the Urban Indian Health
            Pro ram  (Ul),      are aVaIlable and accessible to low- income and indigent urban
            IndIans , (2) the extent ofIndian and non- Indian utilzation and (3) the factors
            infuencing utilization. An additional objective , which developed during the
            inspection , was to identify program plannng and management problems.

            BACKGROUND
            Over the past four decades , increasing numbers of American Indians have left
            reservations to live in cities. More than half of the 1.4 millon Indians in the United
     .1     States are currently estimated to live in cities or metropolitan areas. National and
            communi studies in the late 1960s and early 1970s documented barriers faced by
 f r
       urban IndIans in obtaining necessary health care servces , in part because of their
            low income levels and complex social problems. In recognitIOn of these needs
            Congress enacted the UIHP through Title V of the Indian Health Improvement Act
            of 1976. The intent of title V was to provide improved access to health care for
            urban Indians through outreach and referral efforts and , where necessary, direct
 \l         health care servces.
            The Indian Health Care Improvement Act , including title V , expired in 1984. From
            fiscal years (FY) 1984 through 1987 , the Administration did not request funding for
            the program, which is admimstered by the Public Health Servce (PHS).
            Appropriations have continued through joint resolutions of Congress. Currently, the
            UIHP accounts for $9 millon of the FY 1987 PHS Indian Health Service (IHS)
            budget authority of $848 Inllon. For FY 1988 , the AdInnistration requested
            $8 Inllion and recommended a phase-out of the program by 1991.
            This inspection was designed to complement a statistical evaluation of the UIHP
            which was completed by the Office of Inspector General (OIG), Office of
            Audit (OA). The objective of the OA review was to determine whether direct
            health care provided by the UIHP was justified based on an analysis of nationwide
i .

            UIHP reporting data for fiscal years 1984 through 1986. This Office of Analysis and
            Inspections (OAl) study expanded on the OA data review by undertaking
            suprlemental fieldwork to gain further information on the need of Indian for UIHP
r '	        sefVces.
l (


            MAJOR FINDINGS
            INADEQUATE           Uniform national criteria for monitoring projects are lacking,
i.
            MONITORING	          and there is inconsistent management oversight of the UIHP.
            AND TECHNICAL
            ASSISTANCE           Budgetary decisions are not necessarily based on documented
r
i
i
      '\

      I

      .

                                 need or organizational effectiveness. This has resulted in
I     .	
                                 inequitable and fluctuating funding of some projects , which
I !	

                                 to the projects.
                                 hampers their abilty to plan or provide conSIstent levels of
                                 sefVce. Finally, IHS provides only liInted technical assistance



t­




1'
1 .t

,'
,
j
.- -

   ..,




         ESSENT             The title V legislation called for detailed needs assessment and
         PLAING DATA        program plannng processes. In recent years , most UIHP
         AR LACKING         projects nave not implemented this requirement. Only two
                            local needs assessments have been carried out in the past
                            3 years. Standardized national statistics on urban Indian health
                            needs do not exist.

         UTILIZATION        Accurate population statistics do not exist in many areas and
         RATES LACK         are skewed in others. If the indigent and low- income Indian
         ACCURATE           population were used as the base and defined consistently,
         POPULTION
         BASE               utilzation rates in many areas would be considerably higher
                            than shown in the IHS statistics for the UIHP program.

         INDIAS FACE         Urban Indians who are indigent or who lack health insurance
         BARERS TO           face barriers in attempting to gain access to health care.
         HEALTH CARE         Barriers to mainstream care include complex and restrictive
i.                           eligibility requirements for State and local assistance programs
                             lack of outreach or targeted servces from other commumty
                             providers and , on occasion , direct prejudice. These are siInlar
                             to barriers faced by other indigents , but include some cultural
                             factors unique to Indians.

                             For all centers , 37 percent of users are non- Indian. The
         NON- INDIAS         utilization rate for non- Indian users ranged from 1 percent to
         USE THE URBAN       55 percent for the UIHP sites visited. Multiple funding sources
         INDIA HEALTH
         PROGRAS             require nonrestrictive servces. Reasons given for use of the
                             UIHP by non- Indian clients are convenience , low cost and
                             accessibili ty.

         RECOMMENDATIONS
                . The Public Health Service should strengthen management of the UIHP
                  by (1) implementing a monitoring and evaluation system with uniform
i. J;	            natIOnal criteria for all area offices , (2) completing an updated
                  standardized national needs assessment (based on a standardized updated
, 1	              needs assessments in each local area) and (3) continuing the effort to
ic
                  improve the collection and disseInnation of uniform national aggregate
                  and comparative statistics.
                . The PHS should use needs assessment and evaluation data to decide
                  future funding allocations and individual project- level funding.
r'              . The PHS should provide more explicit guidelines concerning adequate
                  information and referral programs , including assistance in gaining access
t "
              to Medicaid , other medical assistance programs and mainstream health
                  providers.
                . The PHS should complete a detailed analysis of the barriers which inhibit
                  Indian access to mainstream health care and develop an action plan to
                   overcome the barriers.

i. ..




r'
l ­

,,,
.  ( ,

  , ".,,,




                   . The Public Health Service should:

                          1. move the UIHP from IHS to the Bureau of Health Care Delivery and
                             Assistance (BHCDA) where it could be integrated with the community
                             health servces program and other programs providing health care to
                             urban residents il


                         2. develop explicit linkages locally between UIHP clinics and community
                             health centers (CHCs) and nationally between IHS and BHCDA so that
                             the clinics and IHS staff can take full advantage of the urban community
                             health care expertise of the CHCs and the BHCDA.


            AGENCY COMMENTS
            The PHS concurred with all of the OIG recommendations and has taken steps to
            implement the recommended changes. Of the alternatives presented in our fifth
            recommendation , PHS has chosen to adopt the second option.
  r :





i. .
,!,\:., '
.,'.',




                                     TABLE OF CONTENTS


                                                                    Page


                   EXECUTIV SUMMAY

 r r
                   INTRODUCTION


                   FINDINGS
                     SERVICE DUPLICATION
                     PROGRAM UTILIZATION
                     PROGRA MAAGEMENT


                   RECOMMENDATIONS


                   APPENDICES
                     APPENDIX A: RECEIPTS BY SOURCE AN   PROGRAM
                     APPENDIX B: MEDICAL RECORD REVIEW
                     APPENDIX C: COMMUNITY HEALTH CENTERS
i !

                     APPENDIX D: INDIA POVERTY POPULATION
                     APPENDIX E: INFORMATION AN   REFERRA   COSTS
-l,

J:


r'
 i. j"




 ii -.


Tr

 l..­
                              INTRODUCTION

BACKGROUND
Legislative Perspective
The Snyder Act of 1921 and the Indian Health Care Improvement Act of 1976 form
the principle statutory bases for the provision of health care programs by the Indian
Health Servce (IHSI The Snyder Act broadly describes the Federal role in Indian
health care matters I for the benefit , care , and assistance of Indians throughout the
United States.. .for relief of distress and conservation of health. " The IndIan Health
Care Improvement Act further defines the scope of Federal responsibilty to raise
Indian health status to the highest level possibfe. Congress passed the act to address
the unmet health needs of both reservatIOn and urban Indians. Title V of the act
established the Urban Indian Health Program (UIHP) to provide outreach and
referral services and , where necessary, direct health care services. The funding for
the program is a separate budget line item under the IHS appropriation.
The legislative authority for the Indian Health Care Improvement Act expired in
1984. Congress has extended appropriations through continuing resolutions. A bil
for the reauthorization of the act has been introduced in Congress. A portion of this
bil would continue the UIHP under the general authority of the Snyder Act thereby
ensuring its permanent inclusion in the Indian health care delivery network.
Factors Contributing to Urban Indian Growth
Approximately 50 percent of the total 1.4 Inllion American Indians are
concentrated II urban areas , compared with 24 percent remaining on reservations
and 26 percent in nonmetropolitan areas. Between 1950 and 1960 , the size of the
urban fndian population nearly tripled from 56 900    to 166   000. This rapid growth
was infuenced oy Federal polIcy in the 1950s which relocated many tribes and
individual Indian faInlies from rural areas to cities. Escalating unemployment and
poverty on reservations contributed to voluntary urban IngratIOn by IndIans seeking
Jobs and other services. Since 1950 , the Indian population in urban areas has grown
more than sevenfold.
Title V Urban Indian Health Program
National policy has long emphasized Federal responsibilty for providing health care
to Indians living on or near reservations where tfiey are part of a total care service
system. The assumption has been that urban Indians can obtain servces at the local
level the same as non- Indians. In cities , however , experience has shown that Indians
are il- prepared to use local health and social services. The difficulties encountered
by many Indians in gaining access to and using mainstream resources prompted the
establishment of the UIHP.
The origins of the UIHP predate the title V program. The UIHP began in the late
1960s as a grassroots effort by Indian community leaders in response to growing
health problems of urban Indians. The origins of some urban Indian projects were
part of community efforts sponsored by the Office of EconoInc Opportunity.
Initially, small clinics were operated on a part- time basis and staffed by volunteers.
In 1972, Congress appropriated funds for a pilot urban Indian project in
Minneapolis. Congressional interest grew over the next few years , leading to the
passage of the 1976 authorization which established and funded additional projects
in several cities. As of Fiscal Year (FY) 1986 , there were 37 tite V sites located in
18 States. A listing of these sites is shown in appendix A.
Justification for separate Indian health centers in urban areas has been given
several sources , including UIHP staff, board members and patients as well as
community providers. The following points were presented by these sources:
        . For urban Indians , cultural barriers are not easily surmountable.          Indian
           may be reluctant or unable to describe their health needs to strangers
           outside their own culture. Frequently, mainstream providers
           misunderstand or misinterpret the reticence and stoicism of Indians.
        . Some health care providers are reluctant to serve Indians because they
          believe Indians cannot or wil not pay. In some cases , outright prejudIce
          is a factor.
        . The UIHP is designed to bridge reservation and urban mainstream health
          care. The UIHP staff are faITliar with the special needs of Indians and in
          most cases are Indians themselves. They recognize endeInc Indian
          health problems and are able to offer immediate, appropriate and
           cost-effective medical attention. Urban Indian climcs not only provide
           essential primary health care , but also contribute to the overall mental
           and social well- being of urban Indians.
Title V requires UIHP projects to implement the following plannng activities:
    1. deterInne the size of the local urban Indian population
    2. identify public and private health care resources
    3. identify gaps between unmet health needs and the resources available to
       meet such needs
    4. help Indians to become faInliar with health resources and
    5. recommend ways to improve urban Indian health projects.

In FY 1986 , the title V funding for 37 sites in existence at that time was $8. 6 Inllion.
Since most sites have additional funding from other sources , their aggregate funding
was $19 Inllon. The following table shows funding sources and amounts since 1984.


                URBAN INDIAN HEALTH PROGRA RECEIPTS BY SOURCE
                                          1984- 1986
                                     (Milions of dollars)
                             1984                      1985                1986
      Title V
      Other Federal
      State                                                                  2.3
      County
                              2.3
      TOTAL                  17.4                      19.                  18.
    SOURCE: Urban Indian Health Care Program , FY 1986 Charts and Graphs , American
            Indian Health Care Association , Minneapolis , 1986 , p. 3
Since 1982 , title V has contributed between 45 and 49 percent of the projects
budgets. Other funding comes from other Federal , State , city and county sources.
For FY 1986 , title V funds constituted 45. 1 percent of the total funding. Appendix A
contains a complete breakdown of funding by source and by UIHP project.
The following table shows servces provided , as measured in encounters , which IHS
defines as a discrete servce given. An individual user may have multiple encounters
during a year. According to IHS , the decrease in total servces shown since 1982
may bea result of improved accuracy in reporting to eliInnate duplicate counting,
rather than an actual reduction in numbers served.



      YEAR
      1982 582
                         SERVICES PROVIDED BY UIHP CENTRS

                                        TOTAL NUMBER OF ENCOUNTERS

       1983
       1984
       1985                           534
                                      487
                                      504
                                                          567
                                                          157

       1986                           472                 153
                                                          133
                                                          009
   SOURCE: Urban Indian Health Program , FY 1986 Charts and Graphs , p. 16


Direct Health Servces Provided by UIHPs
The UIHP program defines direct health services as " delivery of outpatient medical
dental and mental health servces adInnistered by licensed health care
professionals. " The following table shows 1986 total funding amounts for direct
health services by major functional areas including optometry and inpatient care.

                        FUNDING FOR DIRECT HEALTH SERVICES
                                                                  1986 AMOUNT
       FUNCTIONAL AREA                                           (Millons of Dollars)
       Medica
       Dental
       Inpatient
       Mental Health                                                     1.0
       Optometry
       Alled Health

       TOTAL                                                            13.4
   SOURCE: Urban Indian Health Program , FY 1986 Charts and Graphs , pp. 7­



OBJECTIVES
The principal objectives of this inspection were to deterInne (1) whether the Urban
Indian Health Program duplicates other sources of health care by analyzing the
extent to which community health servces are available and accessible in select
communities , (2) the extent ofIndian and non-Indian utilzation and (3) the factors
which influence utilization. Another objective , which developed during the course
of the inspection , was to identify program plannng and management problems.
METHODOLOGY AND SCOPE
The 37 title V sites funded in FY 1986 were stratified into 7 tiers based on the level
of pro$ram funding and utilzation. Selection of sites was based on an analysis of
historIcal data, current funding and health servce delivery patterns and practices.
Nine sites were selected to include at least one site from each stratum. In order to
determe if direct health servces are justified, the OIG staff identified available
health care providers and reimbursement mechanisms in each site and the extent to
which these are accessible to Indians. Intervews were conducted with urban Indian
health program staff, community health centers , representatives of hospitals and
other health care providers , advocacy and public interest groups and Indian clients.
In seven out of the nine sites , a random sample of medical records was drawn and
data were analyzed to assess utilzation patterns and client characteristics (see
appendix B).
This inspection was not intended to be a comprehensive assessment of urban Indian
health needs or a definitive program evaluation. Some observations on project
accessibilty and health care barriers for urban Indians have been made. While this
inspection exaInnes some of the factors contributing to high/ow utilization , it does
not provide new or comprehensive data on urban Indian health needs , population
characteristics or health resources available.


                 SUMMARY
   UIHP FUNDING AND UTIIJZATION (FY 1986)


                     FUNDING                      UTILIZATION
                          TI V

                             45%               INIA
                                                 63%




           NON-TI V

               55%

          TITLE V - $8. 6 MIUJON                  INIAS - 74 230
          OTHER -      $10.4 MION             NON- INDIAS - 43 188
                      , "




                                  FINDINGS


SERVICE DUPLICATION
Access to Community Health Programs Is Limited for Indigent and Working Poor
Indians
A variety of health care financing mechanisms and health providers are potentially
available to urban Indians in most sites. All communities visited have physicians
hospital emergency rooms and public health clincs , and most have community
health centers. All States have Medicaid and most States or counties have
medically'-needy or medically- indigent adult eligibilty cat gories. The avaqabilty of
such seivces does not mean, however , that they are accessible to urban IndIans. As
is true of many other low- income or indigent groups , urban Indians face a variety of
problems in gaining access to health servces.
Few Urban Indians Receive Medicaid
Although the Indian unemployment rate is 50 percent or more in some urban areas
fewer than 15 percent of urban Indians are enrolled in Medicaid. In 1986 , according
to statistics from the Health Care Financing AdInnistration, 174 000 out of
1.4 millon Indians , or 12 percent nationally, were Medicaid recipients. Many
low- income Indians do not enroll in Medicaid. Some do not make the effort to
deterInne if they are eligible. Others do make the effort but find they do not
qualify.
There are several reasons why Indians do not apply for Medicaid. Eligibility
requirements are complex and growing increasmgly restrictive. For example , in
Anzona , the Medicaid eligibilty forms are 25 pages long. An Indian affairs director
in one State explained You have to be an attorney to wade through the Medicaid
application form. Many Indians won t bother. " Enrollment assistance is sought in
crowded and unpleasant waiting rooms. To some , especially pregnant women
returnin~ to the reservation may seem like a more attractive alternative. Others
forgo pnmary care , seeking health services only when their ilness becomes severe or
when true medical emergencies develop.
Some States have eligibility standards more stringent than the Federal poverty
standards. Reports from several UIHP sites indicate that some Indians either resign
from jobs or move back to the reservation in order to become eligible for Medicaid
or IHS health services. An Indian multi-servce center director explained that
 taking a low- income job with no health benefits is more costly than staying on
welfare. Many Native Americans go back on welfare to keep their benefits.
A few jurisdictions provide help in overcoming enrollment barriers. In Salt Lake
City, the Maternal and Child Health program brought social servces and health
department personnel together with patient advocates to deal with barriers to the
application process As a result , Medicaid participation by Indians and other
indigents increased by more than 40 percent. In Phoeni, a full- time UIHP
community reJ?resentative offers direct and intensive help to overcome individual
eligibilty barners.
Other Medical Assistance Programs Offer Highly Restrictive Coverage and
Benefits to Urban Indians
Many States offer medically-needy or medically- indigent adult (MIA) programs to
those not eligible for Medicaid. Even with assIstance in completing the ehgibility
process , many Indians do not qualify for these servces because employment , even
though margmal , puts them over the income criteria. Urban Indians are largely the
worklng poor. Many have only part-time jobs. Although their jobs are low-paying,
they pay salaries sufficiently hIgh to place them just above the income scale for
MedIcaid or medically- indigent adu1t programs. In addition, these jobs do not
usually offer health insurance. The lacK of financial assistance severely restricts
accessibilty to these programs.
In several Californa locations MI funding once received by the UIHP projects has
been redirected to county facilties. Some UIHP center directors stated that Indians
covered by the MIA program must now use a source of care that is often less
accessible or forgo needed health care altogether.
Indians Face Problems in Access to Private Physicians
Problems for Medicaid beneficiaries in obtainin primary health care were
documented in a service delivery assessment on Access to Physicians for Medicaid
Beneficiaries " conducted by the OIG Dallas Regional office in 1980. Physicians and
staff in many UIHP sites report that access to pnvate providers continues to be a
problem for Indian and other Medicaid reciJ?ients. Physicians increasingly refuse to
accept new Medicaid patients. This is especIally true of key specialist   fields   , such as
obstetrics and weco logy. Reasons for physician refusal to accept Medicaid patients
continue to be (1) perceIved low reimbursement rates , (2) complex claims forms and
(3) payment processing delays.
Physician access is equally difficult , or more so , for non- Medicaid assistance
programs. San Francisco UIHP staff report that it can take up to 4 months to see a
physician under the county-operated MIA program. For an Indian to see a private
practice physician, having insurance or the abilty to pay fees is paramount. Most
physicians are not willng to see indigent patients as charity cases except in very
special circumstances. One of the UIHP staff physicians in Montana reported that
private practice physicians had exercised peer pressure to stop a few who had been
providing charity care to Indian patients , evidently because of fears that this could
affect their fees. Medical staff at UIHP sites also reported that most private
physicians are not aware that Indians are specially prone to certain disorders such as
oiabetes and otitis media and , therefore , do not always provide the necessary testing
for these diseases.
Non-urgent Care through Hospital Emergency Rooms is Costly and Lacks
Continuity
Many urban Indians use hospital emergency rooms (ERs) for non-urgent care.
Hospital ERs , particularly public ones , have traditionally served as a source of care
to indigents. As a 1983 OIG Servce Delivery Assessment on " Use of Hospital
Emergency Rooms for Non- Urgent Care " showed , non-urgent care offered through
emergency rooms is very costly and tends to be episodic in nature. Follow-through
servces may be sporadic , and preventive care is not given. Long delays in waiting
rooms and additional referrals are common.
In many areas , the UIHP projects are alternatives to the more costly hospital ERs.
The hospital or the county has to absorb the costs for non-urgent ER use by
indigents. Many jurisdictIons have set up a system of satellte outpatient clmics at
the hospital or other locations to provide alternatives to ER servces. In a few areas
such as San Francisco and Alameda Counties , the UIHP and the hospital satellites
are part of a consortium of neighborhood clinics. In some sites, if the   Ul  clinics
did not exist, most of their clients would turn to much more expensive care through
the emergency rooms , unless they were served by community health centers.
Even public hospitals expect payment for services. If there is no third party coverage
for an individual patient , a sliding scale fee is applied. Letters are frequently sent
demanding payments.
Federal Hil- Burton   construction funding obligates hospitals to provide indigent
care. Nearly all hospitals built or modernized through f975 are under this obligation.
In several sItes , the OIG team was told that hospitals seek to provide only Inmmal
servces to fulfil their Hil- Burton obligations. ln one of the sites; the single
community hospital budgets a liInted amount for Hil- Burton obligations which is
usually expended by Ind-year.
Community Health Centers Have Few        Indian Patients

Community health centers (CHCs) do not constitute a significant source of primary
care for urban Indians. Of the 10 CHCs visited by the OAI team , none had more
  an an estimated 3 percent Ipdian pati ent population. Most CHCs noted th they
dId not serve any Indians , while others Ildicated that they had very few. Statistical
data on Indian utilzation of CHCs are not available since these facilties do not
keep records of patients by ethnic identity. The chart in appendix C shows the
location and funaing of federally- funded CHCs in those cItIes where there are also
UIHP projects.
Community health center directors , staff and others highlighted several reasons why
Indians do not use CHC services:
          Indians represent a small percentage of the total population of the
          communitIes included in this inspection. In Los Angeles , Indians
          represented less than 1 percent of metropolitan area residents. In none
          of the other sites do Indians represent more than 3 percent of the total
          metropolitan population.
        . The CHCs generally tend to serve clearly defined neighborhoods and
           those individuals living near the facilities. Indians , unlike most other
           ethnic groups , tend to be scattered throughout metropolitan areas. This
           liInts the potential of CHCs to provide outreach to Indians. In addition
           targeting the Indian population would require a formal and structured
           outreacn program--a costly servce that most CHCs indicate they cannot
           afford.
        . The CHCs are not free clinics. Most bil     for services as aggressively as
           hospitals and private physicians. The OIG staff was told that while no
           CHC wil refuse servIce to an indigent client because of inabilty to pay,
           Indians , as well as other indigent individuals , are often intiIndated or
           discouraged from seeking CHC servces.
A CRC in San Francisco , located near the UIHP clinic, voiced concerns siInlar to
other CHCs. Staff stated that given liInted resources and pressing demands , they do
not have the capacity to serve an additional population group, whether it be Indians
or others. With additional resources , the center director indicated that this would be
possible. The director stressed , however, that even if the staff and budget were
Ilcreased , the center does not have staff currently trained to appropriately address


Indians
the health and social needs of Indians.
Public Health Clinics Lack Capacity to Provide Adequate Primary Care to Urban

Public health clinics face problems siInar to CHCs in servng Indians. Clinc staff
and others report that they' have little outreach capacity and find Indians , who do not
congregate in easily identified community groups , a difficult population to target.
County budgets , like Federal funds , are also shring, thereby Ilcreasing the
budgetary constraints placed on public health centers.


PROGRAM UTILIZATION
Utilzation Rates Are Not Fully     Accurate
Utilzation rates for the UIHP need to be carefully interpreted before they can be
fully understoo d. The IHS utilzation rate     ased on the 19 0 census dat
                                                are
IndIan populatIOn beyond the census year IS projected through lInear regressIOn
techniques using IndIan birth and death data provided by the National Center for
Health Statistics.
Census data are the only comprehensive data available. They are subject to
data-gatherin$. imper ections , however , as India are highly mobiI
                                                                           !ind diffi
track. In addItion , uSIlgthe total number of IndIans to calculate utIlIzatIOn
                                                                                     ult

                                                                                    dIsguIses
the fact that the actual target population is , or should be , indigent , unemployed or
marginally-employed Indians who are not covered by health insurance and who have
difficulty II gaIning access to mainstream health care. The Census Bureau publishes
data on Indian population by metropolitan and urbanized areas. These data are
broken down to show Indian population in 1979 for all income levels as well as those
below the poverty level. The IHS uses the figures for all income levels as its base;
however , data for Indians living below the poverty level Inght be a more accurate
base. A table showing these data for several California cities is contained in
appendix D.
There are also anomalies in calculating the base rates since some UIHP catchment
areas are not synonomous with the census areas. Population figures utilzing
Standard Metropolitan Statistical Areas (SMSAs), for example , include multi-county
areas which may extend well beyond the tJHP catchment areas. Population figures
shown for some areas include Indians living on reservations. Finally, only a fraction
of Indians or any other population group Will be sick and in need of health servces
in a given year.
The IHS has been working for several years with the American Indian Health Care
Association to improve data gathering and utilization statistics for the program.
Much progress has been made , but further improvements would ensure greater
accuracy in utilzation and other needed data.

What Current Indian Patients Say About        Utilzation

The OIG inspection team talked to approximately 50 Indians. Intervews were
conducted randomly with patients waiting for services at the UIHP projects visited.
Nearly all (46 of the 50) were current users of the Indian health centers. The other
four were former patients who accompanied friends to the project. The Seatte
Indian Health Board also conducted a survey early in 1987 of 613 patients , 18 years
or older , who lived in Kin~ County and who had used the Health Board' s servIces
within the past 3 years. FIlally, analyses of medical records in seven of the nine sites
visited provides further indicators of utilzation.
Urban Indians Use the UIHP Centers Because They Are Afordable and Accessible
Affordability, presence of qualified " caring" staff and perception of the UIHP as a
special place for Indians were the primary reasons given by current patients who
utilize tbe projects.

                          WH PATIENT COME TO UIOP FOR CARE
                                                 Percent                  Percent
                                                OAf Client              Seattle UIHP
                                             Sample (N = 46) *        Sample (N=613)*


Special              " Staff
Affordabilty/SlidingFee
Qualifed and " Caring
                Place for Indians
Friend or Relative Goes There
Don   t Know of Other Programs
Convenient/Accessible Location 

*The percentages total more than 100 because patients could give more than one response.

Indian UIHP patients intervewed by OIG staff were mostly satisfied with the
services, Only seven respondents expressed dissatisfaction. Those who were
dissatisfied gave reasons such as " had to travel too far " and " disliked director.
Word-of- Mouth Referrals Are a Key Utilzation Factor
Most Indians heard about the UIHP from a friend or relative (39 percent), from
 other Indians " or individuals (26 percent) or from a referral from another health
center (13 percent). Six percent said they " always knew of the center" and only
2 percent said they became aware of the program from the phone book , newsletters
or from former staff members.
Other Sources of Care and Barriers
Respondents were asked what sources of care would be used if the UIHP centers
were not available. While many ansered th           se private p ysicians
                                                    ey would

hospItal emergency rooms or other commumty or publIc health clImes , the most
common answer (36 percent) was that they did not know. When asked what barriers
existed at other sources of care , long waits (34 percent) was mentioned most often.
Other barriers mentioned included overworked , uncaring staff (15 percent) and "
understanding of Indians.
Many Factors Limit Utilzation
Several factors prevent greater utilization of the UIHP centers. The highly mobile
and Ingratory nature ofthe population makes outreach more diffcult and thus
decreases utilization. Budgetary and staffing liIntations constrain the maxmum
capacity of many UIHP centers to provide services. In Boston, for example , there
are funds to maIltain a primary care physician for only 4 hours per week , during
which time no more than 10 to 15 patients are seen. The Boston project does not
advertise or employ active outreach for fear that its liInted capacIty would be
overwhelmed. Other UIHP projects curtailed outreach because of siInlar concerns.
Even when the centers operate at full capacity, they reach only a small percentage of
the Indian population.
Finally, many Indians return to their reservations for health care. This is particularly
true of pregnant women who want to deliver their babies on the reservation or who
encountered difculty in accessing the UIHP or maintream servces.
Utilzation Could Be     Improved
Many respondents felt that more could be done to improve outreach and utiliation
rates. The Maternal and Child Health (MCH) and Women and Infant Care (WIC)
program are among the most popular and successful UIHP-operated programs.
These are magnet program which bring in faIlies who then use general medical
servces. Several projects reported that outreach for these two programs had been
cut sharply with aoverse effects on general utilzation rates. Greater outreach
efforts for MCH and WIC would immediately increase utilzation. Several UIHP
staff reported that word-of-mouth was the most effective means of inforInng urban
Indians about health services. More effective use of Indian organizations
newspapers and powwows would result in increased utilzation.
Many of the UIHP projects are housed in run- down facilities in less desirable
neighborhoods. ClInic location in the most run- down areas deters many Indians
especially the working poor , from seeking services. In recognition of this factor
several centers have plans to move or to upgrade their present facilities.
Many Non- Indians Use UIHP Centers
The following table shows non- Indian utilzation for the 9 sites visited and for the
37 sites funded in 1986. Over one- third of the users of the UIHP program are
non- Indian. Nearly one- half of the total UIHP budget comes from sources other
than tite V. In most sites , those projects where title V is a smaller proportion of the
total budget have a higher percentage of non- Indian users. For some , such as
Seattle , San Francisco , Phoeni and Los Angeles , title V represents less than
one- half of the total project budget. Although some of the non- title V funding is
earmarked for Indians , most funding sources do not perInt restriction of client
populations to a particular ethnic group.
                                   UIHP CLIENT POPULTION
                                            Non-              Percent            Title V
                          Indian           Indian               Non-          Percent of
                           Users            Users              Indian           Budget
Al 37 UIHP


    Seattle 5 721
     Sites
    Boston
Selected sites
              895 1 431           6  .
                             054 160 7.
                                              188              36.


                                                                19.5
                                                                                  45.

                                                                                 100.
                                                                                  48.



    Phoeni 8
    Tucson   06
    Missoula 710
    Helena
                 88
    Salt Lake City 2
                 723
    San Francisco 4 596
    Los Angeles 3 968
             893 255
             586 220
                 148 23.
                     20.
                                          5 618 55.48.4
                                          3
                                                                22.2
                                                                                  72.
                                                                                  33.
                                                                                  50.
                                                                                  38.4
                                                                                  92.
                                                                                  75.3
                                                                                 100.
Source: Urban Indian Health Program , FY 1986 Charts and Graphs , pages 47­
Non- Indian patients did not express any concern about using a clinic that was
designated Indian. They were attracted by the same considerations as Indian
patients , but with slightly different prioritIes: the low fees that were charged if the
patient had no source of third party payment and the accessibilty of the UIHP
center. Two of the most popular programs , MCH and WIC , were particularly
attractive to non- Indian as well as Indian patients.


PROGRAM MANAGEMENT
The Indian Health Servce Has Not Managed the Program Adequately
The IHS has not provided resources to properly manage the UIHP. Until recently,
there were no full- time staff in IHS heaaquarters or in the area offices with
responsibilty for the urban projects. Each area office has its own system for
monitoring projects. Some area office staff conduct on-site visits two or three times
a year, whIle others may conduct only one or none. The IHS uses standard
procedures for review and approval of contracts , but has no national procedures
prepared for specific use in managing the UIHP. Clinical reviews of urban projects
have been done on an individual basis , but there is no required schedule or protocol.
Basic Program Planning and Evaluation Is Lacking
The ori~inal models for the programs were supposed to be based on locally
determIled needs. It is not clear to what extent such needs assessments were done
during the initial stages of the program. Once the initial allocations were made
however, they frequently became the basis for all subsequent allocations. Variations
in funding have not been based on changing needs or on evaluations of effectiveness.
The last national compilation of Indian health needs was conducted in 1976 with the
subInssion of the IndIan Health Care Improvement Act. Updated needs
assessments have not been required by IRS as a condition of continued funding.
Until 1985 there was no uniform statistical reporting for the urban programs to show
comparative data on utilization , servces provIded , sources of funding or
expenditures. Although the annual national census data have been useful in aiding
the health plannng process for urban Indians , these data are inadequate.
One of the few urban Indian needs assessments to be carried out in recent years was
conducted in 1986 by the San Francisco UIHP with assistance from the Robert
Wood Johnson Foundation. This survey encompassed a 5 percent sample of Indians
living in the San Francisco Bay area and represented both users and non-users of the
San Francisco UIHP. Findings from this assessment show a disparity between
Indian socio-econoInc status and that of the general population, even for Indians
who had lived in the city for many years. The methodology for this Bay Area
assessment is available for replication by other UIHP centers.
Inadequate Criteria Exist for Evaluating Information and Referral Servces
Information and referral (I & R) was a primary purpose of the UIHP program set
forth in the 1976 Indian Health Care Improvement Act. The table in appendix E
shows the amount expended for I & R services for each of the nine sites In this
inspection and for air sites funded in 1986.
Neither the Act nor IHS guidelines delineate what 1& R services should encompass.
In some locations , they consist of little more than compiling a directory of health
servces that are available in a community and handing this to clients. Other centers
provide much more comprehensive services. These include counseling,
Identification of individual needs and available community resources, help with the
preparation of eligibilty documents and follow-through.
For this reason, many of the projects have negotiated written agreements with public
or private hospitals. These agreements make adInssion to the hospital (or transfer
back to the UIHP center) much easier. Transfer and referral forms sent with the
patient include information about current medical findings , diagnosis , rehabiltation
potential cmd pertinent adInnistrative and social information. While the transfer
agreements state that the patient is responsible for the payment of hospital bils
written documents simplity the hospita1 adInssion process for indigent patients.
Lack of Permanent Legislation Impedes Effectiveness
Lack of permanent legislative authorization since 1984 has impeded effective
operation of the UIHP projects. Funding is available only on a year- to-year basis
and funding levels have been uncertain.   This impedes program plannng, especially
for those who have depended on tite V monies for most or all of their funding. This
has compounded the problems which stem from lack of consistent monitoring by
IHS.
Variation Exists in Licensing and Accreditation
There is considerable variation concerning the licensure and accreditation status of
the UIHP projects. Those that provide only information and referral are usually
located in an Indian multipurpose center and do not need licensing as a health
facility. At the other extreme are four centers which meet the exacting standards of
the Joint ComIssion on the Accreditation of Healthcare Organizations (JCAHO).
The remaining centers meet Innimal State and local requirements for the licensure
of an outpatient health facility.
                            RECOMMENDATIONS


RECOMMENDATION #l-- PROGRA PLANING AND MAAGEMENT
FINDING: Uniform national criteria for monitoring projects are lacking, and there
is inconsistent management oversight of the  Ul. Budgetar decisions are not
necessarly based on documented need or organizational effectiveness. Ths has
resulted in inequitable and fluctuating funding of some projects which hampers their
abilty to plan or provide consistent levels of servce. Furthermore , IHS provides
only limited techical assistance to the projects.

RECOMMENDATION: The PHS should strengthen management of the UIHP by
0) implementing a monitoring and evaluation system with uniform national criteria
for all area offices , (2) completing an updated standardized national needs
assessment (based on a standardized updated needs assessments in each local area)
and (3) contIluing the effort to improve the collection and disseInnation of uniform
national aggregate and comparative statistics.
PHS COMMENTS: We concur. The IHS has already taken action to strengthen
management by refining the UIHP evaluation criteria which wil be included in the
IHS manual. These criteria will define the responsibilities of IHS headquarters and
area offices regarding monitoring and review of the adInnistrative and clinical
components of the health care delivery system.
The IHS has also established a monitoring and evaluation system and has initiated
on-site quality assurance program reviews of UIHP clinics. These reviews are using a
structured review protocol patterned after that used by the JCAHO.
The IHS eXJects to complete the development of a standardized national needs
assessment II FY 1989. The IHS expects that the standardized needs assessment wil
be in use for all UIHP clinics by the end of FY 1989.
The IHS has imI?lemented the Urban Common Reporting Requirements (UCRR)
and is currently Improving the national data by collecting diagnostic and
epideInological data for the UIHP. These efforts wil continue.


RECOMMENDATION #2-- FUNDING DECISIONS
FINDING: Funding and budgetary decisions are not based on documented need or
organizational effectiveness. The UIHP reporting and data system , which is now
partially implemented , is not being fully utilzed as an accurate base for the
equitable dIstribution of funding among urban Indian projects.
RECOMMENDATION: The PHS should use the needs assessment and evaluation
data to decide future funding allocations and individual project level funding.
Projects that do not provide essential or cost-effective servces should have funds
redIrected or reprogrammed to areas of greater need.
PHS COMMENTS: We concur. The IHS will initiate shortly a process to document
the need for direct services at each current or proposed UIHP clinic. This
assessment of need will include documentation of the availabilty of health   care
servces from providers not specifically funded to servce American Indians and
Alaska Natives. Any cost savIlgs will be redirected or reprogrammed to areas of
greater need.


RECOMMENDATION #3-- INFORMTION AND REFERR
FINDING: Criteria concerning adequate information and referral servces are
lacking.
RECOMMENDATION: The PHS should provide more explicit guidelines
concernng what constitutes an adequate iriormation and referral program
including assistance in gaining access to Medicaid and other medical assistance
programs and mainstream health providers.
PHS COMMENTS: We concur. The IHS will develop a program guidance
reference which details the individual components of adequate information and
referral programs. The guidance will include suggested methods for improving
access to Medicaid , Medicare , medical assistance and mainstream health provIders. ,


RECOMMENDATION #4-- BARERS
FINDING: Access to available community health services is liInted for Indians who
are indigent or who lack health insurance , despite information and referral efforts
made by the UIHP. Barriers to care include restricted eligibilty and lack of
outreach or targeted servces.
RECOMMENDATION: The PHS should complete a detailed analysis of the
barriers which inibitIndian access to mainstream health care and develop an action
plan to overcome the barriers.
PHS COMMENTS: We concur. The IHS has taken the first step towards the
achievement of this objective by comInssioning the Arizona access study. This study
will determine the size of the urban Indian population in Arizona , barriers to health
care and alternate health resource availabilIty. The methodology used in that study
will be modified as necessary and implemented nationally in urban areas with a
significant Indian population. Based upon those results , further efforts wil be
undertaken to determine what steps can be taken to reduce the barriers to health
care for urban Indians. The IHS expects to complete the analysis in late calendar
year 1989.




RECOMMENDATION #5-- UIHP AND COMMUNITY HEALTH
CONSOLIDATION
FINDING: The UIHP has many siInlarities to the CHC program. Many UIHP
centers , in fact , serve a majority of non- Indian patients. While a few UIHP centers
are members of local commumty health provider consortia , most UIHP centers have
few formal or informal ties to other community health or public health programs.
Federal technical assistance to UIHP centers on urban health issues has been very
liInted. The priorities of the Indian Health Servce are with Indians living on or
near reservatIOns.

RECOMMENDATION: The PHS should:
       . move the UIHP from IHS to the Bureau of Health Care Delivery and
          Assistance (BHCDA) where it could be integrated with the community
          health servces program and other programs providing health care to
          urban residents il


            develop explicit linkages locally between UlHP clinics and community
            health centers (CHCs) and natIOnally between IHS and BHCDA so that
            the clinics and tHS staff can take full advantage of the urban community
            health care expertise of the CHCs and the BHCDA.
PHS COMMENTS: We concur with the second option. The IHS will direct the
UIHP clinics to develop written memoranda of agreements and referral linkages
with the local CHCs to share informatic;m, expertIse and facilitate patient referral.
The IHS will develop a general guideline for a memorandum of agreement for use at
the local level between CHCs and UIHPs. The IHS and BHCDA wil develop
linkages to enable the IHS to benefit from BHCDA' s experience in marketing and
program development.
     --------                                        ---------------------------------------------------------------------
                                                                      ----------------------------------------------------
                                                                                   ---------------------------------------

                Receipts by Source and by Progral, FY 1986
                                                                                                              APPENDIX A


      Progral         Section 330       "CH          WIC       IHS Title Y     IHS Other      Other Federal    "edicare     Kedicaid

ALL PROGRA"S           $1, 514, 152   $179 181     $939, 253   $8, 575, 619    $1, 515, 918        $373 784     $127, 458    $880, 570
  Percent                                                             45.
  Average                $378 538      $89 591      $83, 925     $245, 018       $216, 560          $93 446          966      $48 921
  "inilul                $186, 459     $62, 241     $24 557        $32, 946        $3, 990           $8, 150        $107         $634
  "axilul                $807, 614    $116, 940    $212, 807   $1, 186, 354      $854, 000         $261, 967     $24, 257   $227, 193



  Olaha  $86,
ABRDEEN AREA------------------------------


  Pierre $185,                                                           000
                                                                         600 $12,      551 $1,                                    353


  Al buquerque $24,
ALBUQUERQUE AREA------------------------------------------------------------------------------------------------­



  Denver        $217

                  125 $6,
                                                           557 $132, 000
                                                                         406
BE" IDJ I AREA----------------------------------------------------------------------------------------------------­

  Chicago $151,                                                                                                                   693


  Green Bay $135,
  Detroit

  "ilwaukee $807 614 $62, 241                     $212, 807 $465, 865
                                                                         000
                                                                                  $28, 951                       $16, 611   $110, 056
  "inneapolis $269       010 $751,                                395


  Anaconda
BILL IN65
           $32,
            AREA---------------------------------------------------------------------------------------------------­
  Billings $127
                                                         946


  Butte $41
                                                             923



  Helena
  "iles City$68,
                                                                         521
  Great Falls $112,                                                      558


              $37
  "issoula $64,
                                                                         446
                                                                         791
                                                                         501
                                                                                                                               $5, 147



                AREA-------------------------------------------------------------------------------------------------­
  Bakersfield
CALI FORNI A


  Fresno $173,         $53,
                                                                         157 $12,
                                                                         073
                                     000 $17 916  $44,                   510 $854,                                                814


                      $258, 066 $14

                                              550 $32,
                                                   t55   228     $565,                                                            889
  Sacralento                                                             807 $7
                                                                              $6
  Los Angeles
                                                                                                                     866 $141, 557
  San      Diego      $281,                   406 $12,
                                                                         319                                                      107
  San Francisco $116,
  San Jose S56,
  Santa Barbara $236,
                        518 $414
                        279 $239
                                              698 $97,
                                           940 $126,
                                              627 $61,
                                                                         075 $73,
                                                                         800  $1                                                  589
                                                                                                                                  818
                                                                                                                                  207


  Dallas $169,                   400 $94 043 $228                        000 $1,
OKLAHO"A AREA------------------------------- --------------------------------------------------------------------­





                                                                         610
                                                   $1,   940 $475,                                                                872
  Oklahola Cit) $499 468 $3, 990 $261, 967    772                                                                                $634
  Tulsa $186, 459
  Wichita $42,
           $247,                                         687 $365,                                              $5 368 $13, 316
                                                                                                                  $523 $25, 620

  Phoenix $75,
  Reno $149,                                                             500 $3,
           AREA-.'----------------------------------------------------------­
PHOENI X
                                                         648 $136, 000 $130, 849                  $9    624         $941
                                                                         631
  Salt Lake City $39, 810 $185,                                                                                                   566
PORTLAND AREA----------------------------------------------­

  Portland
                                                                                       777 $14
  Spokane   $55,
      069 $35
               020                                                                     800 $2, 010 $21,
  Seattle $251                                           779 $1, 186, 354 $281,                                      578 $227 193
                                                                         084 $203,                                                139


  Tucson $141,
TUCSONAREA-----------------------------------------------------------------------------------------------------­
                                                                                                                    $107


  Boston $138,
USET AREA .------------------------------------------------------------------------------------------------------­



  New Ycrk City $164,
                                                                         531
                                                                         138                        $8, 150     $24 257
    --------                                   -_.._------- ---------------------------------------------------------
                                         ------_.._------   ;"-- -------;-:----------------------------------------------



         Pregral      Other 3rd Party Pt. CelIE   ctiens     State        Ceunty        City         Other         TOTAL



                           $1, 071 184       $1, 155, 483     269, 125    $679, 289    $132, 594    $682, 510   $18, 991, 445
ALL PROGRAPIS
                                                                                                                       100. OZ
  Percent
                              $59 510           157, 774      $84, 608     $84 911      $44 1"/8     $31, 023      $542, 613
  Average
                                                    $300       $6, 583      $5, 514     $12, 607        $296        $34 580
  Plin   ilul                    $115
                                               $;:73, 211    $270, 576    $184, 823     $95, 599    $184, 826    $2, 631, 924



  Olaha
  Pierre $4) 722"$86,
  Plaxilul                   $751, 585




                  ' $199

ABERDEEN AREA---------------------

                                                                                                                           000
                                                                                                                           551




  Denver $43,   420 $29,
  Albuquerque $192
ALBUQUERQUE AREA------------------ ----­

                                                    $16,                                                 699 $202, 868

BEPlIDJ I
         365 $9,
  Green Bay $73,
  Detroit
                         632 $26,
                                                                                738 $38, 012                     $299
            AREA---------------------- -------..----------------------------------------------------------------­

  Chic age $9 904 ii13,                                                                                   731 $190
                                                                                                                           156


                                                                                                                           817



                     277 $114                                        525 $32,                             886 $268, 043
                                                                                                          917 $2, 631, 924



  Anaconda       $1,
  PlilMaukee $751,                                61,
  Plinneapolis $:!7,
                                   585

                                                        211 $9, 179      $184, 823 $24 388 $184           826 $1, 796, 832




  Butte
  Billings
  Great Falls  $5

              $5
                $127,
BILLINGS AREA--------------------- -------..----------------------------------------------------------------­

                                                                                                          634 $34

                                                                                                          073 $46, 594
                                                                                                                           580
                                                                                                                           923




  Pliles
  Helena
          City $5,
  Plissoula384   $13,
                   $64
   $2, 761 $1
                                                                                514 $3 240 $121,
                                                                                       155 $90,
                                                                                                                           312
                                                                                                                           893




  Bakersfield
                                                                                                          500 $43          291
                                                                                                                           501



           000 $1,
CAL IFORN I A   AREA------------------- ------------------------------------------------------------------------­

                                                                                                         $812 $53, 885
  Fresno $41 264 $199, 203 $40, 676 $25, 952 $1, 370,                                                                      707

  Los Angeles '13 314 $270, 576 $72,
         732 $694
  Sacralento $46, 375                      $l03, 224
                                                                                                                     128, 342


  San Diego $13 744 H9
                                                            $130,
                                                        370 $92,     850157 $426,                                          820
                                                                                                                           284


  San Jose $11,         221
                        870 $9,
  San Francisco $86 421 592, 953 $117, 084 $120,
                             $547
                          32, 224 $131,
  Santa 8arbara $34 399 $l48, 581
                                   320

                                                            $54
                                                                            $41,                          542 $1, 221, 221
                                                                                                          827 $544 116
                                                                                                                           132


                        000 $49,
OKLAHOPIA AREA--------------------- ------- -----------------------------------------------------------------­


                        925  $563

   Dallas $5 288 531,
                      435 $23,                                                                            198 $874
                                                        322 $47                                                            291

   Oklahola City $3, 406                     533        991 $24                                                            728


                        000 $53,
           $300
   Tulsa $5
887 521,               188 533,                                                               172 $941, 050
   Wichita $2,                                                                                            387 $378, 478


   Phoenix
                                                        451 $27


   Reno 559 $149,
PHOENI X AREA---------------------- ------- -----------------------------------------------------------------­





              $254,
   Sal t Lake City $4              311 521,
                                                                                                         $296 $353, 658



PORTLAND AREA--------------------- ------------------------------------------------------------------------­

                                                                                                                           631
                                                                                                                           746


   Portland
   Seattle $40, 227 556, 437                                 $67     957 . $179, 749   $95     599 $32, 892 $2, 469, 611


   Tucson $115 $6 860 $5,
   Spokane $11, 796 $6, 503 $6, 583 $12, 607                                                         $7 513 $327, 035
TUCSON AREA----------------------- ------------------------------------------------------------------------­





   Boston $138,
   NeM York Ci ty $196,
                                                                                                          246 $153, 348
USET AREA------------------------- ------------------------------------------------------------------------­

                                                                                                                           531
                                                                                                                           545
                                                         APPENDIX B



                         MEDICAL RECORD REVIEW

A total of 186 medical records were reviewed in 7 of the 9

sites visited for this       study.
                                Records were selected in such
a way as to represent a random sample of both active and
inactive cases. There is no uniformity, however , in the
kind of information maintained in the      records.
                                                  Some UIHP
sites keep records according to the JCAHO standards while other
sites keep records in an informal manner more suitable for
drop-in clinics. All of the sites maintained intake data
showing age , status as Indian or non-Indian and employment and
insurance coverage. All records showed each visit made
symptoms presented , treatment given and follow- up or
referral recommended.


The following summaries highlight the results of this

review.
Race

                                  Number of
          Ethnici t              Individuals       Percent
 Indian                            135             72.
 Non- Indian                                       27.
           Asian
           Black
           Greek
           Hispanic
           White
           Information
             not available

   Total                           186            100.


Residence
Of the 140 individuals in the sample who had information
regarding their residence , 127 or 90. 7 percent lived in
urban areas. Thirteen , or 9. 3 percent , were from rural or
reservation areas. The remaining 46 individuals did not
provide this information.



                                   B-1

Employment
Only 32 of the 186 records clearly showed that the patient

was employed. For most , the information was not included.

Age
The following table shows a breakdown of the ages of the

population sampled.




                       Number of
                      Individuals            Percent
                                              11.5
         3-5
                                              12.
        19-55            105                  60.
         56+
        Total            174                 100. a



The date of birth for 12 individuals was   missing.
Total Visits and Utilization

The following tables describe the number of visits each person

made to the UIHP and the number of years they had used the

facili ty.


The total number of visits per individual ranged from

1 to 75 visits.




      Number of         Number of

         Visi ts       Indi vidual s        Percent
                                              36.
         2-3                                  24.
                                              32.
         21+
        Total              179               100. a



The information for seven individuals was not   available.
      Number of         Number of

            Years      Individuals           Percent
                           135                 78.
            2-3                                10.
            11+
          Total            173               100. a


The information for 13 individuals was not   available.
Insurance
The following is the breakdown of the insurance , or lack
thereof ,that these individuals possess.



                            Number of

      Insurance            Individuals         Percent
    Welfare
    SSI
    IHS/reservation
    Medicaid                                         14. a
    Medicare
    Other/private
    None                                             28.
    No information
                                  40.
      available
      Total                      186                 99.




                              B-3

       COMMUN ITY HEALTH CENTERS
                                                                      APPENDIX C


            UIHP          UIHP                  UnIP            CHCs          CHCs
       Pro     ects   Direct Services          Title V        # Clinics    Section    330
    Phoenix              Limi ted                136, 000                     576, 421
    Tucson                                       141, 020                     154, 052
    Bakersfield            & R                    53, 073                     651, 328
    Fresno               Full                    173, 510                     508, 000
    Los Angeles
         Limi ted                565, 157                     294, 024
    Sacramento           Full                    258, 066                       -0­
    San Diego
           Full                    281, 807                      491, 683
    San Francisco        Full                    414, 319                      687, 838
    San Jose             Full                    239, 800                 $ 1, 415, 904
    Santa Barbara
       I &         Dental      236, 075                       -0­
    Denver               Limited                 217, 406                     455, 742
    Chicago              Li mi ted               151, 125                 $ 7, 131, 337
    Wichi ta
            Full                    247, 610                     221, 977
    Boston               Limi ted                138, 531                     308, 340
    Detroit                                                               $ 1, 557, 012
    Minneapolis          Full                    751, 395                     255, 694
    Anaconda                                      32, 946                       -0­
    Billings             Limited                 127, 923                     256, 200
    Butte                I & R                     41 , 521                   175, 450
    Great Falls                                  112, 558                       -0­
    Helena               Limi ted                 68, 446                       -0­
    Miles City                                    37, 791                       -0­
    Missoula             I &                      64, 501                       -0­
    Omaha                Full                     86, 000                     328, 719
    Al::uquerque         Limi ted                132, 000                     293, 194
    Re!1o                                        149, 631                       -a­
    New York Ci ty                               164, 138                 $16, 750, 000
    Oklahoma Ci ty       Full                    499, 000                 $ 1, 038, 898
    Tulsa                Full                    365, 468                     768, 838
    Por-:land            Limi ted                                             697, 000
     Pie::re             Full                    185, 000                     100, 000
    Dallas               Full                    475, 400                     031, 879
    Salt Lake Ci ty      Limi tea                185, 500                 $ 1, 030, 000
    Seattle              Full                 $1, 186, 354                    100, 000
    Spokane              Full                      55, 084                     65, 000
    Green Bay
                                   135, 000                       -0­
    Mi hlaukee           Full                    465, 865                     468, 143
* Data unavailable.
                                                         APPENDIX D





Indian Population Below Poverty Level

The Census Bureau publishes data on Indian population by
metropoli tan and " urbanized" areas.  These data are broken
down to show Indian population in 1979 for all income levels
as well as for Indians below the poverty     level.The IHS
uses the figures for all income levels as the base for its
projections of current year Indian population in UIHP
ci ties. These data , in turn , are used to calculate
utilization rates.
The following table shows the Indian population for 1979 for

all income levels and for those below the poverty level for

several California cities:

                           1979 Indian Population
   City
                         All Income Income Below
                          Levels            Poverty Level
San Francisco                946                 225
San Jose                     728                 080
Los Angeles                  581                 101
Sacramento                   407                 797
Santa Barbara                065                 359
SOURCE:	   Bureau of the Census , 1980 General Social and
           Economic Characteristics , California , p. 543.
           The 1980 Census asked about 1979 income.


Indian population below the poverty line might provide a
more realistic basis for proj ecting current Indian target
population.



                                D-1
Communi ty   Penetration
Communi ty penetration examines to what extent the Indian
community, based on IHS population projections , is utilizing
the proj ect. The IHS population proj ections are based upon
county Indian population census data , except in the case of
Anaconda , Butte , Pierre , Missoula , Miles City, Fresno and
Helena , where they are based upon a smaller subdivision. The
IHS population projections for the urban areas may, in some
cases , include reservation populations.
The following table presents the Indian census compared to
Indian users by program for FY 1986.
The Indian census data was provided by the Indian Health

Service.
      --------           -------------
                 Indian Census Compared to Indian Users by Program, FY 1986

       Program        Indian Users/Census
 ALL PROGRAMS                        17.
   Average                           61.
   Minimum                            1. 8%
   Maximum                          717 .

   Omaha717.

          83.

ABERDEEN AREA----------------------­

   Pierre
   Albuquerque
   Denver      7.

            10.

ALBUQUERQUE AREA-------------------­




   Chicago
BEM I DJ I

   Detroi t

   Green
             AREA-----------------------­
         Bay 37.

                                     11 . 6%


   Milwaukee
   Minneapolis 21.
                  38 . 2%


  Anaconda 136.

BILL I NGS AREA----------------------­

  Billings 46.

  Butte 62.

  Helena
  Great Falls  165.

  Miles City 271.

                     34.

  Missoula         95.

  Bakersfield
      AREA--------------------­
  Fresno 25.

CAL I FORN I A
                                      7 . 1%

  Los Angeles5.

  Sacramento                          7.

  San Diego       2 . 9%
  San Francisco 23.

  San    Jose
  Santa Barbara 54.
                 7 . 1%


  Dallas      22.

  Tulsa 8.

OKLAHOMA AREA----------------------­


  Oklahoma City 18.

  Wichi    ta 30.

  Phoenix
  Reno     29.

          42.

    AREA-----------------------­
PHOEN I X


   Lake City
  Sal t                             27 . 4%
PORTLAND AREA----------------------­

  Portland
  Seattle 32.

  Spokane 48.

  Tucson
TUCSON AREA------------------------­



  Boston 19.

USET AREA--------------------------­

                                     5. 1%


  New York City 1.


                                     0- 3

                                                      APPENDIX E





                I & R VERSUS DIRECT HEALTH COSTS


                             Dollars Expended

                          Direct Care      I & R      % I & R

Boston                               111       373       61.

Seattle                          560 437   168 348

Sal t   Lake City                165 965       975       14.

Helena                               112       140       22.

Tucson                           111 562       881       34.

Phoenix                          122 234   230 148       65.

Los Angeles                      935 480   232 460       20.

San Francisco                    356 505   103 511

Missoula                             332       526       82.
Total--Nine Sites                379 738   963 362       15.
Total--All Sites                 356 987   570 759       25.
   Includes all expenditures other than I & R

   Includes all community and health education costs

   Excludes direct care from Phoenix IHS Hospital

SOURCE: Urban Indian Health Program , FY 1986 Charts and
        Graphs , American Indian Health Care Association
          Minneapolis ,   1987
